Department of Homeland Security
   Ofﬁce of Inspector General

            Improvements Needed in FEMA’s 
 

            Management of Public Assistance-

             Technical Assistance Contracts 
 





OIG-11-02                                     October 2010
                                                                  Office ofInspector General

                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 25028



                                                                  Homeland
                                                                  Security
                                    OCT 2 1 2010

                                       Preface


The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports published as part of our oversight responsibilities to promote economy,
effectiveness, and efficiency within the department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency's management of its Public Assistance-Technical Assistance Contracts. We
contracted with the independent public accounting firm ofFoxx & Company to perform the
audit. The contract required that Foxx & Company perform its audit according to generally
accepted government auditing standards.

Foxx & Company is responsible for the attached auditor's report dated September 22,
2010, and the conelusioils expressed in the report.

The recommendations herein have been developed with the best knowledge available to
our contractor, and have been discussed in draft with those responsible for
implementation. We trust that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all who contributed to the
preparation of this report.
                                             ~l1Jl (!Je fc'~ ~ff J~lcck ;
                                            Matt Jadacki
                                            Assistant Inspector General
                                            Office of Emergency Management Oversight
September 22,2010

Mr.. Matt Jadacki
Assistant Inspector GeneraI for Emergency Management Oversight
Office of Inspector General
Depaltment of Homeland Security
24 - Murray Drive, SW, Building 410
Washington, DC 0528

Dear Mr. Jaclacki:

Foxx & Company pelfonned an audit of the Federal Emergency Management Agency's
. FEMA) management of Public Assistance-Technical Assistance Contracts (PA-TACs).
The audit was perfonned according to Task Order o. TPDFIGBPAO 000 , Task Order
No.. 8, dated September 29, 009.

This report presents the results of the audit and includes recommendations to help
improve FEMA's management and oversight ofPA-TACs.

Our audit was conducted according to applicable Government Auditing Standards, July
200 revision. The audit \.vas a performance audit as defmed by Chapter 1 of the
Standards, and included a rev-ie\.v and report of program activities with a compliance
element. We did not pelfonn a financial audit, the purpose ohvhich would be to render
an opinion on the agency's fina.ncial statements.

We appreciate the opportunity to have conducted tills audit. Should you ha\ e any
questiOlLS, or if we can be of any further assistance, please can me at (513) 639-8843.

Sincerely,

Foxx & Company




Maltin W. 0 Neill
Pattner
Table of Contents
Executive Summary ...........................................................................................................1 
 


Background ........................................................................................................................2 
 


Results of Audit ..................................................................................................................7 
 


     Task Order Award Process ............................................................................................7 
 

     Recommendation .........................................................................................................10 
 

     Management Comments and Contractor Analysis ......................................................10 
 


     Performance Measurement for PA-TAC Contractors..................................................10 
 

     Recommendation .........................................................................................................14 
 

     Management Comments and Contractor Analysis ......................................................14 
 


     Task Monitor Training.................................................................................................14 
 

     Recommendation .........................................................................................................16 
 

     Management Comments and Contractor Analysis ......................................................16 
 


     Long-Term Community Recovery Resources .............................................................17 
 

     Recommendation .........................................................................................................19 
 

     Management Comments and Contractor Analysis ......................................................19 
 


     Task Order Contract File Compliance .........................................................................20 
 

     Recommendation .........................................................................................................21 
 

     Management Comments and Contractor Analysis ......................................................22 
 



Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................23 
 

     Appendix B:           Management Comments on the Report................................................25 
 

     Appendix C:           List of Related Audit Reports and Testimonies ...................................28 
 

     Appendix D:           Report Distribution ..............................................................................30 
 



Abbreviations
     CO                    Contracting Officer           

     COTR                  Contracting Officer’s Technical Representative

     DHS                   Department of Homeland Security 

     DAE                   Disaster Assistance Employee 

     EMMIE                 Emergency Management Mission Integrated Environment 

     ERPMC                 Emergency Response Program Management Consultants 

     FAR                   Federal Acquisition Regulation



                                  Improvements Needed in FEMA’s Management of PA-TACs
Table of Contents 
 

  FEMA       Federal Emergency Management Agency
  GAO        Government Accountability Office
  IA         Individual Assistance
  IDIQ       Indefinite Delivery Indefinite Quantity
  LTCR       Long-Term Community Recovery
  NEMIS      National Emergency Management Information System
  NISTAC     Nationwide Infrastructure Support Technical Assistance Consultants
  OIG        Office of Inspector General
  PW         Project Worksheet
  PA         Public Assistance
  PA-TAC     Public Assistance–Technical Assistance Contract
  RAMP       Remedial Action Management Program




                 Improvements Needed in FEMA’s Management of PA-TACs
Executive Summary
             Foxx & Company assessed the Federal Emergency Management
             Agency’s management of Public Assistance-Technical Assistance
             Contracts. Audit objectives were to evaluate processes and
             procedures for awarding task orders, monitoring and evaluating
             contractor performance, and certifying contractor billings. The
             audit scope covered the FY 2008 task orders issued to respond to
             the Iowa floods (May 2008) and hurricanes Gustav and Ike
             (September 2008).

             The Federal Emergency Management Agency may not be adhering
             to the Brooks Act, which requires the government to select
             engineering and architecture firms based on their competency,
             qualifications, and experience. The agency awarded task orders
             based primarily on an equal distribution of dollars among the three
             contractors, rather than on expertise.

             The agency also did not establish performance standards, nor did it
             evaluate the performance of the contractors. In addition, Task
             Monitors, agency employees responsible for managing and
             monitoring the contractors, had not received written guidance or
             training on how to evaluate contractor performance or certify
             billing invoices. Oversight and evaluation is crucial because more
             than $30 billion in federal dollars have been allocated to the Public
             Assistance program during the past decade.

             The contractors did not respond in a timely manner or provide the
             technical resources the agency needed for Long-Term Community
             Recovery requirements. This lack of resources caused delays in
             the agency’s ability to provide this type of assistance.

             We are making five recommendations that will improve the
             effectiveness of the agency’s management of Public Assistance-
             Technical Assistance Contracts.

             The Federal Emergency Management Agency generally concurred
             with our recommendations. The agency’s response to our
             recommendations is summarized and evaluated in the body of this
             report and included in its entirety as Appendix B.




            Improvements Needed in FEMA’s Management of PA-TACs

                                    1
Background
                         When disasters occur, local communities respond first, followed by
                         the state if necessary. Federal assistance may be requested under
                         the Robert T. Stafford Disaster Relief and Emergency Assistance
                         Act (Stafford Act) when the magnitude of the disaster exceeds
                         local and state capacity. The Federal Emergency Management
                         Agency (FEMA) Public Assistance (PA) program provides critical
                         assistance, in the form of direct assistance and grants, to state,
                         tribal, and local governments, as well as certain private nonprofit
                         organizations, to enable communities to respond to and recover
                         from major, presidentially declared emergencies and disasters.

                         FEMA awards grants to provide PA funding for debris removal;
                         emergency protective measures; and the repair, replacement, or
                         restoration of eligible disaster-damaged facilities, such as medical
                         facilities, schools, roads, bridges, and utilities. FEMA also
                         provides Individual Assistance (IA) funding through its Individuals
                         and Households Program to assist homeowners and renters
                         affected by the disaster with housing needs and necessary
                         expenses. PA funding has been substantial, totaling more than
                         $30 billion for the past decade. For the disasters in our review,
                         Iowa flooding in 2008 and hurricanes Ike and Gustav, PA funding
                         totaled $3.8 billion and IA funding totaled $845 million (see figure
                         1).1




1
 Disaster #1763 was declared in May 2008 for the Iowa flooding and Disaster #1791 was declared in
September 2008 for Hurricanes Ike and Gustav.

                       Improvements Needed in FEMA’s Management of PA-TACs

                                                   2
                         Figure 1. Public Assistance and Individual Assistance Funding
                         for Iowa Flooding and Hurricanes Ike and Gustav (in millions)




                         Source: Foxx & Company, using FEMA data for PA funding as of May 2010
                         and for IA funding as of July 2010 for Disaster #1763 and Disaster #1791.

                         As of March 2010, FEMA has 4,169 permanent employees who
                         work at FEMA headquarters in Washington, DC and at regional
                         and area offices across the country. FEMA also has nearly 9,000
                         standby disaster assistance employees (DAEs) who are available
                         for deployment after disasters.2 In addition, to provide the
                         necessary technical resources to support PA operations, FEMA
                         awarded three Indefinite Delivery Indefinite Quantity (IDIQ)
                         Public Assistance-Technical Assistance Contracts (PA-TACs) in
                         June 2006. Services include providing technical assistance to
                         grantees and sub-grantees, such as architect-engineer services,
                         environmental experts, and other professional services, in support
                         of the PA program. The PA-TACs were awarded, for a 5-year
                         period of performance, to Fluor, Emergency Response Program
                         Management Consultants (ERPMC), and Nationwide
                         Infrastructure Support Technical Assistance Consultants
                         (NISTAC).

                         The amounts paid to the PA-TAC contractors to provide technical
                         assistance for the 2008 Iowa flooding and hurricanes Ike and Gustav
                         totaled more than $165 million as of May 2010 (see table 1).




2
 The Stafford Act authorizes the “appointment of temporary personnel, experts, and consultants” to
supplement FEMA’s permanent staff when a disaster occurs. These hires are known as disaster assistance
employees (DAEs) or reservists.

                       Improvements Needed in FEMA’s Management of PA-TACs

                                                   3
                  Table 1. Fees Paid for PA-TAC Services as of May 2010
                   Contractor Task Order Number          Obligation Expenditures

                   Fluor            HSFEHQ-08-J-0039                 $23,058,000         $22,285,143


                   Fluor            HSFEHQ-09-J-0004                  $3,370,000          $1,545,792
                   Fluor            HSFEHQ-08-J-0031                  $6,880,000          $6,394,891
                   ERPMC            HSFEHQ-08-J-0014                 $61,861,060         $61,872,533
                   ERPMC            HSFEHQ-08-J-0021                 $20,796,707         $19,417,321
                   ERPMC            HSFEHQ-09-J-0003                  $7,876,040          $2,424,090
                   NISTAC           HSFEHQ-08-J-0025                 $53,225,534         $46,087,585
                   NISTAC           HSFEHQ-08-J-0024                  $2,409,753          $1,088,190
                   NISTAC           HSFEHQ-09-J-0003                  $8,852,124          $4,398,162
                                    TOTALS                          $188,329,218        $165,513,707
                 Source: FEMA’s Public Assistance Program Office

                           After a disaster is declared, the following sequence of events
                           occurs:

                               •	 A Preliminary Damage Assessment is completed to
                                  determine the magnitude and impact of an event’s damage,3
                               •	 FEMA field officials submit the Preliminary Damage
                                  Assessment, which includes PA-TAC resource
                                  requirements, to the contracting officer (CO) and
                                  contracting officer’s technical representative (COTR) in
                                  FEMA headquarters,
                               •	 The COTR reviews the requests for PA-TAC resources and
                                  prepares task orders specifying the PA-TAC technical
                                  requirements,
                               •	 The CO awards the task orders to the PA-TAC contractors,
                               •	 Task Monitors, FEMA field employees responsible for
                                  managing and monitoring the contractors, are assigned to
                                  each task order, and
                               •	 The COTR coordinates with the Task Monitors to verify
                                  that work was completed as specified in the task orders and
                                  approves the Task Monitor certification that contractor
                                  invoicing information is correct.

                           The project worksheet (PW) provides the basis for awarding PA
                           grants and is used to document the location, damage description,
                           scope of work, and cost estimates for each project. The PW

3
 This is a joint assessment by a FEMA/state team that views the damage firsthand to assess the scope of
damage and estimate repair costs. The state uses the results of the Preliminary Damage Assessment to
determine whether the situation is beyond the combined capabilities of the state and local resources and to
verify the need for supplemental federal assistance.

                        Improvements Needed in FEMA’s Management of PA-TACs

                                                     4
                        process generally includes an initial site inspection by FEMA
                        officials and PA-TAC contractor personnel, who then develop
                        PWs that include the scope of work and estimated project costs.
                        The number of individual PWs and types of PA funding for the
                        Iowa flooding and for hurricanes Ike and Gustav are shown in
                        table 2 (data as of May 2010).

                        Table 2. Project Worksheets and Public Assistance Funding
                                                            Hurricanes Ike
                                           Iowa Flooding      and Gustav
                                                    PA                 PA
                                                 Funding            Funding
                         PA Category      PWs (millions) PWs (millions)
                         Debris
                         Removal            760      $40.1 1,009      $738.0
                         Protective
                         Measures         1,788     $210.5 4,706      $621.0
                         Roads and
                         Bridges          3,169      $94.8 1,134        $38.4
                         Water Control
                         Facilities         569      $57.6     79       $20.1
                         Public
                         Buildings        1,367     $702.1 6,073      $715.8
                         Public
                         Utilities        1,129     $201.7    799       $82.5
                         Recreational
                         or Other           897      $34.0 1,580      $132.3
                         State
                         Management         560      $40.0      2       $80.6
                         TOTALS          10,239 $1,380.8 15,382 $2,428.7
                        Source: FEMA’s EMMIE and NEMIS reporting systems4

                        Reports issued by Congress, the White House, the DHS Office of
                        Inspector General (OIG), and the Government Accountability
                        Office (GAO), among others, identified deficiencies, as well as
                        opportunities for improvement, in many aspects of FEMA’s
                        disaster acquisition process and the PA program.5 The following
                        examples of disaster assistance issues have been reported:

                            •	 PA program management suffers from inexperienced
                               personnel who are inadequately trained,
4
  The Emergency Management Mission Integrated Environment (EMMIE) system is FEMA’s automated, 
 

enterprise-wide grants management system implemented in July 2008. EMMIE replaces the National 
 

Emergency Management Information System (NEMIS), the previously used electronic grants management
 

system.
 

5
  For a list of related audits, see appendix C. 
 


                      Improvements Needed in FEMA’s Management of PA-TACs

                                                 5
     •	 PA-TAC contractors often began work before state and
        local governments had the capacity to work effectively with
        the contractors on long-term recovery efforts,
     •	 PA program performance objectives and measurements
        need improvement,
     •	 FEMA’s performance measurement efforts need to be
        improved in order to provide the accurate and balanced
        information that is needed to assess, and improve as
        appropriate, the timeliness and performance of the PA
        program, and
     •	 Contract documentation is inadequate and does not provide
        sufficient justification for the acquisition of goods or
        services.

 Disaster response activities require close coordination and
 cooperation among all levels of government, nonprofit
 organizations, the private sector, and individuals. The National
 Response Framework defines key principles, roles, and structures
 of participants who respond to incidents to ensure a coordinated,
 effective national response. FEMA acquisition officials must
 respond quickly to acquire goods and services to assist survivors.
 However, FEMA officials must do so while complying with
 Federal Acquisition Regulation (FAR) requirements and utilizing
 their emergency responder partners as outlined in the National
 Response Framework.

 DHS OIG contracted with Foxx & Company to evaluate the
 effectiveness of FEMA’s management of PA-TACs. The audit
 objectives were to evaluate FEMA processes and procedures for:

     •	 Awarding individual task orders,
     •	 Monitoring and evaluating contractor performance, and
     •	 Certifying contractor billings.

 Nine PA-TAC task orders issued to provide public assistance
 recovery services in response to the 2008 disasters of hurricanes
 Gustav and Ike in Texas and Louisiana and floods in Iowa were
 reviewed. The PA-TAC base contracts FEMA awarded to the
 three contractors that currently provide the PA-TAC services
 specified in the task orders were also reviewed.




Improvements Needed in FEMA’s Management of PA-TACs

                        6
Results of Audit
        Task Order Award Process
                 FEMA may not be adhering to the procedures required by the Brooks Act
                 for awarding individual task orders to the three contractors that currently
                 provide PA-TAC services in response to disasters.

                 The Brooks Act (Public Law 92-582) was enacted on October 27, 1972.6
                 It amended the Federal Property and Administrative Services Act of 1949
                 in order to establish federal policy concerning the selection of firms and
                 individuals to perform architectural, engineering, and related services for
                 the federal government. The Brooks Act requires that U.S. government
                 agencies select engineering and architecture firms based upon their
                 competency, qualifications, and performance.

                 FEMA did comply with the Brooks Act in awarding its three PA-TAC
                 base contracts in June 2006. These base contracts provide architect-
                 engineer, consultant, and other professional services in support of the PA
                 program for a 5-year period. FEMA awarded IDIQ contracts to three
                 technically qualified firms: Fluor, ERPMC, and NISTAC. Fluor was
                 ranked as the highest qualified, ERPMC was second, and NISTAC was
                 third. Subsequently, FEMA has awarded individual task orders under
                 these base contracts to obtain PA-TAC services for specific disaster
                 recovery efforts from FY 2006 to the present. However, for all nine task
                 orders in the scope of our review, the primary reason contractors were
                 selected was “Equal distribution of dollars between the TACs.”

                 To select the PA-TAC contractors for individual task orders, FEMA uses a
                 Technical Evaluation/Negotiation Memorandum Checklist. This checklist
                 has a section titled “Reason for Contracting Officer’s Technical
                 Representative/Contracting Officer Selection of TAC,” which lists several
                 justifications (see table 3).

                 In all the cases we reviewed, the primary justification for selecting a
                 certain contractor for a task order was “Equal distribution of dollars
                 between the TACs,” rather than competence, qualifications, and
                 experience. Following is a summary of the selection reasons:




6
 The contracts were awarded pursuant to the Brooks Architect-Engineer Act, 40 U. S. C. §§ 1101, et seq.
(hereinafter referred to as the Brooks Act), and FAR Subpart 36.6.

                        Improvements Needed in FEMA’s Management of PA-TACs

                                                    7
Table 3: Reasons Cited for PA-TAC Selection
                   Fluor   Fluor   Fluor   ERPMC   ERPMC    ERPMC    NISTAC       NISTAC   NISTAC
 Justifications
 for PA-TAC        08-J-   09-J-   08-J-   08-J-   08-J-    09-J-    08-J-        08-J-    09-J-
 selection         0039    0004    0031    0014    0021     0003     0025         0024     0003
 Equal
 distribution of
 dollars
 between TACs       X       X       X         X       X        X        X            X        X
 Equal
 distribution of
 type of damage
 and degree of
 magnitude
 between TACs       X       X                 X       X        X                     X        X
 Contractor
 already located
 in the
 geographic
 area                                                                   X
 Equal
 distribution of
 smaller
 disasters
 Contractor is
 knowledgeable
 of disaster and
 will maintain
 continuity of
 services
 Contractor has
 unique
 technical
 expertise
 currently
 unavailable
 from other
 TACs
 Requested by
 Region
Source: Foxx & Company, based on FEMA task order files

                      The DHS OIG Office of Counsel reviewed the Brooks Act requirements
                      and our finding, and stated that it appeared that FEMA employees
                      awarding individual PA-TAC task orders may have relied on section 1103
                      of the Brooks Act, which states that an agency head must conduct
                      discussions with at least three firms and select, in order of preference, at
                      least three firms that he or she considers most highly qualified to provide
                      the required services. However, FEMA did not engage in the next step
                      required by section 1104, to negotiate with the most highly qualified firm
                      selected under section 1103, offering services at a price which is fair and
                      reasonable. Therefore, because the PA-TAC contract primarily involves

                            Improvements Needed in FEMA’s Management of PA-TACs

                                                     8
                 architectural and engineering services, FEMA may not be adhering to the
                 Brooks Act.

                 Counsel cited section §1103(c) which provides that “for each proposed
                 project, the agency head shall evaluate current statements of qualifications
                 and performance data on file with the agency, together with statements
                 submitted by other firms regarding the proposed project. The agency head
                 shall conduct discussions with at least 3 firms to consider anticipated
                 concepts and compare alternative methods for furnishing services.”7
                 There was no documentation in the task order files to indicate that FEMA
                 was conducting discussions with all three firms each time a task order was
                 awarded. Without an evaluation of qualifications, questions arise whether
                 FEMA may be using a less qualified contractor to do the work, possibly
                 negatively affecting the survivors and the community. In addition, a
                 contractor may have already been in place at a disaster location, been
                 more qualified and familiar with the community and issues, and thus could
                 have been a better resource and responded more quickly.

                 Officials from DHS OIG met with officials from FEMA’s Office of Chief
                 Counsel to discuss this matter. FEMA’s Counsel said that the application
                 of the Brooks Act to the issuance of PA-TAC task orders was an issue
                 across the government, different agencies dealt with it differently, and
                 there was no government-wide ruling on this issue. FEMA’s Chief
                 Counsel is in the process of requesting an opinion from the Department of
                 Justice on the application of the Brooks Act to individual task order
                 awards.

                          Conclusion

                          FEMA may not be adhering to the Brooks Act when it awards
                          individual task orders to the contractors based primarily on the
                          equal distribution of dollars among the contractors, instead of on
                          the contractors’competencies, qualifications, and performance.




7
  Counsel’s research revealed that the Federal Acquisition Streamlining Act of 1994 provided for multiple
awards and task and delivery order contracts (Pub. L. No. 103-355 section 1054(a) (1994) and 41 U.S.C.
sections 253h, 253i, and 253j). However, the Act specifically stated that it did not modify or supersede
responsibilities under the Brooks Architect-Engineer Act.

                        Improvements Needed in FEMA’s Management of PA-TACs

                                                     9
     Recommendation
            We recommend that the Federal Emergency Management
            Agency’s Office of Chief Counsel:

            Recommendation #1:

            •	 Follow through on its request for an opinion to the Office of
               Legal Counsel, or the Federal Programs Branch, Civil
               Division, at the Department of Justice regarding how the
               Brooks Act applies to the awarding of individual Public
               Assistance-Technical Assistance Contract task orders, and
            •	 If the Department of Justice finds that the current method of
               awarding Public Assistance-Technical Assistance Contracts
               does not adhere to the Brooks Act, work with applicable agency
               officials to ensure that future task order awards follow the
               legally required process.

     Management Comments and Contractor Analysis
     FEMA partially concurs with this recommendation. FEMA stated that
     they are coordinating with the Department of Homeland Security’s Office
     of General Counsel, which intends to review the issue and will transmit a
     request for an opinion to the Department of Justice, if necessary.

     Contractor Analysis: After review of the DHS General Counsel’s
     response, the OIG will re-evalauate the recommendation. The
     recommendation is considered unresolved and open.


Performance Measurement for PA-TAC contractors
     At the time of our review, FEMA had not established performance
     expectations and did not monitor or evaluate the performance of the PA-
     TAC contractors. Without performance metrics or evaluations of
     performance, FEMA was unable to determine whether the PA-TAC
     contractors performed their responsibilities or if the federal government
     received a fair return for PA-TAC services contracts valued at more than
     $188 million. Because FEMA is selecting contractors based on total
     dollars received rather than on qualifications, the selected contractor may
     not be able to properly perform the required tasks. Improved oversight
     and evaluation is crucial because more than $30 billion in federal dollars
     has been allocated to the PA program during the past decade.



          Improvements Needed in FEMA’s Management of PA-TACs

                                  10
According to the PA-TAC base contract terms, the task orders awarded are
performance based. FEMA required PA-TAC contractors to provide
quality assurance and project management plans, which FEMA would use
to evaluate the contractor’s performance for timeliness, quality, customer
service, and cost; and would demonstrate the PA-TAC contractor’s
comprehensive approach to the overall development, management, and
coordination of the contract task orders.

In addition, the contract requires the PA-TAC contractors to develop and
provide monthly status reports that included the following information for
each task order:

   •	    Brief description of work and the number of personnel onsite,
   •	    Start dates for the periods when personnel are deployed,
   •	    Total contract dollars obligated and status,
   •	    Estimated hours expended for the current month,
   •	    Summary of deliverables submitted,
   •	    Planned activities for the next month, and
   •	    Problems and proposed corrective actions.

There were two forms of services the PA-TAC contractors provided for
the task orders in our review. For five of the nine task orders we
reviewed, the PA-TAC contractors provided an array of technical
assistance specialists to assist applicants in developing PWs, the
documentation FEMA requires for providing PA funding and the leading
task order deliverable.

For the other four task orders in our review, the PA-TAC contractors
provided Long-Term Community Recovery (LTCR) services. PA-TAC
contractors do not create PWs for these services. The deliverables were as
follows:

   •	 Providing technical support for community recovery planning,
   •	 Writing, reviewing, and revising contingency plans,
   •	 Developing and conducting program evaluations,
   •	 Developing and maintaining Standard Operating Procedures,
      program guides, and job aids,
   •	 Conference planning and delivery support, and
   •	 Developing training.

The final deliverable was an LTCR plan, which was described as a tool
used to support and guide community decision-making and to assist
community leaders to identify priorities for recovery initiatives and
projects.


        Improvements Needed in FEMA’s Management of PA-TACs

                                11
                 For the nine task orders in our review, the task order files did not contain
                 specific information on performance expectations or on how the
                 contractor’s performance for developing PWs or producing LTCR plans
                 should be evaluated. In addition, none of the Task Monitors we
                 interviewed had criteria to evaluate the contractors’ performance for
                 creating PWs or LTCR plans. There were no progress reports or other
                 documentation indicating how well the PA-TAC contractors were
                 performing. FEMA officials told us that the PA-TAC contractors submit
                 monthly status reports to the COTR and CO and post the reports to TAC-
                 Manager, FEMA’s web-based reporting site. (Auditor’s note: FEMA
                 provided us electronically with a sample contractor “Task Order Activity
                 Report” which includes information on PWs, personnel hours for the
                 report period, and types of work accomplished. However, the sample was
                 not for work under a task order in our review, and FEMA did not offer us
                 an opportunity to view the web-based reporting site during our field
                 work.)

                 FEMA officials did not answer our request for an explanation as to why
                 performance expectations were not established for the task orders or why
                 contractor performance was not evaluated. According to the Alternate
                 PA-TAC COTR, there should be expectations established and monitoring
                 of contractor performance.8 The Alternate PA-TAC COTR said that the
                 former PA-TAC COTR believed that these contracts were not
                 performance based, but the Alternate PA-TAC COTR strongly disagreed
                 with that position. The PA-TAC contract states that the task orders
                 awarded under the three base contracts will be performance based. After
                 conclusion of our field work, the Alternate PA-TAC COTR provided us
                 with draft documents which together constitute a proposed Contractor
                 Performance Evaluation Plan. These documents have been forwarded to
                 various stakeholders for comment. A pilot program to assess the proposed
                 evaluation plan is scheduled to begin September 2010.

                 A March 2009 Remedial Action Management Program (RAMP) report on
                 hurricanes Ike and Gustav cited issues with PA-TAC contractor
                 performance.9 It reported that additional actions were needed to ensure
                 that project worksheets’ estimated cost of projects were accurate in order
                 to avoid costly change orders.10 The report further recommended that


8
  The FEMA PA-TAC COTR left FEMA in December 2009 and another FEMA employee was designated
as the Acting PA-TAC COTR in January 2010. A FEMA PA-TAC COTR was appointed in May 2010 and
the Acting PA-TAC COTR became the Alternate PA-TAC COTR.
9
  In July 2003, FEMA introduced the RAMP to identify and remedy operational and programmatic issues
encountered in disaster response and recovery operations and exercises, and to capture lessons learned and
smart practices. The RAMP replaced the Disaster Corrective Action Program.
10
   If the contractor does not accurately estimate costs or scope of work in the initial PW, the PW must be
revised, which can be time consuming and labor intensive, delaying the start of repair or rebuilding.

                        Improvements Needed in FEMA’s Management of PA-TACs

                                                    12
                  monthly reporting procedures be required to document progress by the
                  PA-TAC contractors.11

                  The RAMP report also discussed other contractor performance issues
                  during recovery efforts after hurricanes Ike and Gustav. For example, it
                  took 7 to 10 days to process security background checks and at least 3
                  weeks to train the PA-TAC personnel before they could begin work.
                  Because PA-TAC contractor personnel did not have a complete
                  background check or clearance, some of them were denied access to the
                  Joint Field Office and communication network. During this time, the PA-
                  TAC personnel were getting paid but were unable to perform their
                  contract responsibilities. The report also stated that there was limited
                  availability of contractor personnel for manning towers used to monitor
                  debris removal. Instead, PA applicants monitored and estimated the
                  amount of debris being removed. FEMA estimated this process resulted in
                  inaccurate estimates and a 15% to 20% increase in the cost of debris
                  removal statewide, resulting in an unnecessary expenditure of federal
                  funds.12

                  DHS OIG recently reported that FEMA needed improved assessments of
                  the PA program’s performance.13 FEMA’s performance measurement
                  efforts need to be improved to provide accurate and balanced information
                  needed to assess, and improve as appropriate, the timeliness and
                  performance of the PA program.

                           Conclusion

                           Task orders awarded using the three PA-TAC base contracts are to
                           be performance based, using agreed-upon performance metrics. At
                           the time of our review, FEMA had not established performance
                           expectations and did not monitor or evaluate the performance of
                           the PA-TAC contractors. Without performance expectations or
                           adequate monitoring or evaluations, there is no assurance that the
                           federal government and the state and local entities are receiving the
                           expected PA-TAC contractor services for the federal funds
                           expended.




11
   DHS OIG is currently reviewing the RAMP program and will issue a report in the near future. 
 

12
   Debris removal is the clearance, removal, and disposal of items such as trees, sand, gravel, building 
 

components, wreckage, vehicles, and personal property. PA funds are available to eligible applicants for 
 

debris clearance, removal, and disposal operations.
 

13
   DHS OIG, Assessment of FEMA’s Public Assistance Program Policies and Procedures, OIG-10-26, 
 

December 2009.
 


                        Improvements Needed in FEMA’s Management of PA-TACs

                                                     13
     Recommendation
            We recommend that the Federal Emergency Management
            Agency’s Public Assistance Division Director:

            Recommendation #2:

                •	 Establish performance expectations and develop
                   performance and evaluation criteria for the Public
                   Assistance-Technical Assistance Contracts,
                •	 Ensure that Public Assistance-Technical Assistance
                   Contracts contractor performance is being evaluated using
                   the criteria established, and
                •	 Ensure that there are consequences for failure to achieve
                   performance expectations.

     Management Comments and Contractor Analysis
     FEMA concurs with this recommendation. FEMA is in the process of
     developing a Technical Evaluation Worksheet to evaluate contractor
     performance. The FEMA Public Assistance Division distributed a draft
     Technical Evaluation Worksheet to FEMA Regional Recovery Divisions
     for review and comment in August 2010. Once reviewed and approved,
     the Contracting Officer’s Technical Representative and the Contracting
     Officer plan to utilize the Technical Evaluation Worksheet as the primary
     tool to capture performance. This Worksheet will also be used by the
     Task Monitors in the Regions to evaluate contractor performance on each
     task order.

     Contractor Analysis: We consider FEMA’s planned action for
     establishing a process to evaluate contractor performance responsive to the
     recommendation. Until DHS OIG receives and evaluates the corrective
     action plan and target completion date, this recommendation is considered
     unresolved and open.


Task Monitor Training
     The management of PA-TAC contractors was inconsistent throughout
     FEMA. Task Monitors had not received job-specific written guidance or
     training on their roles and responsibilities. Nor had they received
     guidance on how to evaluate contractor performance or certify and
     reconcile contractor invoices and billing documentation. As a result, the
     Task Monitors employed their own techniques to manage the PA-TAC


          Improvements Needed in FEMA’s Management of PA-TACs

                                  14
contractors and reconcile contractor invoices for hours worked and
expenses incurred.

Task Monitors are FEMA employees in the field who monitor contractor
performance and report to the FEMA PA-TAC COTR in FEMA’s
headquarters. The PA-TAC COTR works with the Task Monitors to
ensure that the work was completed as specified in the task order and
approved. The Task Monitors also certify that the contractor work
products and invoices for hours and expenses are correct. However,
without any formal guidance on how to carry out these duties, Task
Monitors used a variety of means to verify contractor work.

Some Task Monitors used self-generated schedules to track contractor
progress on PWs, while others relied on weekly meetings. All 11 Task
Monitors acknowledged the need for FEMA to clearly define their roles
and responsibilities. In addition, because FEMA has not provided written
guidance or training on how to reconcile contractor invoices for hours
worked and expenses incurred, there was no consistency in how the Task
Monitors performed the very important certification function. Some Task
Monitors reviewed timesheets by looking for “outliers”—hours reported
that deviated markedly from other similar timesheets—while others
periodically completed desk checks to see if contract personnel were at
assigned duty stations.

The level of effort required of each contractor varied by individual task
order. Consequently, as each task order progressed, careful review and
oversight was necessary to lessen the potential for fraud, waste, and abuse.
To illustrate, for the LTCR task orders, the following workweek hours
were cited in various task orders:

   •	 65-75 hours per week per person for the first 23 weeks and then 20
      hours per week for the remaining 17 weeks,
   •	 70 hours per week per person for 17 weeks and 40 hours per week
      for the remaining 20 weeks,
   •	 60 hours per week per person for 20 weeks and then 240 hours per
      specialist to be incurred on a part-time, intermittent basis for the
      next 4 months, and
   •	 60 hours per week per person for 27 weeks and then a 55-hour
      workweek for the remaining 13 weeks.

Overtime (hours in excess of 40 hours per week) was often billed at one
and a half times the contract rate for that skill level. Examples of hourly
rates for specific specialists included $297 for an accountant, $272 for an
insurance specialist, $243 for a project director, $214 for a construction
inspector, and $173 for an environmental planner. Considering the
variation in hours that can be charged and the amount of money involved,

     Improvements Needed in FEMA’s Management of PA-TACs

                             15
it is important for FEMA to have a process for verifying the number of
hours worked. It is also essential that this review process substantiates
that the PA-TAC contractor employees are working on tasks requiring
their technical qualifications. For example, if an engineer is temporarily
providing administrative services, FEMA should pay the lower hourly rate
for the service actually provided. To this end, the Task Monitors said
there was a need for formal FEMA guidance and training on how to check
hours worked and services provided so FEMA does not pay for time or
expertise not provided.

       Conclusion

       FEMA has not provided adequate guidance or training to define
       and direct the roles and responsibilities of the Task Monitors.
       Without specific policies and procedures and a standardized
       process to guide the Task Monitors in their job of monitoring
       contractor performance and certifying the accuracy of contractor
       invoices, there is no assurance that these important functions are
       being properly executed.

Recommendation
       We recommend that the Federal Emergency Management
       Agency’s Chief Procurement Officer:

       Recommendation #3:

           •	 Develop policies, procedures, and processes that define and
              direct the Public Assistance Task Monitor role and
              responsibilities for monitoring and evaluating contractor
              performance and for certifying and reconciling contractor
              invoices and supporting documentation,
           •	 Develop a formal training program to instruct the Public
              Assistance Task Monitors on their roles and
              responsibilities, and
           •	 Develop a certification program for Public Assistance Task
              Monitors.

Management Comments and Contractor Analysis
FEMA concurs with this recommendation. FEMA will develop policies,
procedures, and processes that define and direct Task Monitors and
develop a formal training program, as well as a certification program, for
the Task Monitors. FEMA stated that it will implement this
recommendation no later than September 30, 2011.

     Improvements Needed in FEMA’s Management of PA-TACs

                             16
     Contractor Analysis: We consider FEMA’s planned actions responsive to
     the recommendation. Until DHS OIG receives and evaluates the
     corrective action plan and target completion date, this recommendation is
     considered unresolved and open.


Long-Term Community Recovery Resources
     For the disasters we reviewed, contractor staff availability was inadequate
     in quantity and quality to meet LTCR resource needs. FEMA officials
     said there were occasions when the PA-TAC contractors did not respond
     to requests for LTCR services in a timely manner. Also, the PA-TACs did
     not identify or provide the technical LTCR personnel that FEMA needed
     to analyze the impacts of the disaster. The need for personnel caused
     delays in FEMA’s ability to provide LTCR assistance.

     The mission of LTCR is to promote long-term recovery for communities
     suffering extraordinary damages. LTCR resources work with the state to
     identify and coordinate potential sources of recovery funding. Also,
     LTCR provides technical assistance in the form of impact analyses and
     recovery planning support. The LTCR mission is complete when the team
     has identified all potential resources, coordinated with the officials in the
     severely damaged areas, conducted the necessary impact analyses, and
     provided support to launch community recovery plans. LTCR is distinct
     from FEMA’s recovery programs (PA, IA, and Mitigation) in both scope
     and mandate because it is tasked with coordinating and leveraging the
     capabilities of each program to support communities’ recovery goals. The
     three PA-TAC contractors had LTCR services in the scope of their
     contracts.

     Four of the nine task orders in our review were for LTCR services. As of
     May 2010, of the $27 million obligated for these four task orders, $14.7
     million had been paid to the PA-TAC contractors for LTCR technical
     assistance for the Iowa flooding and hurricanes Ike and Gustav. However,
     for three of these four task orders, the Task Monitors we interviewed said
     they encountered difficulty in obtaining LTCR expertise needed from the
     contractor.

     When the PA-TAC contractors could not provide sufficient LTCR
     resources for the hurricanes Ike and Gustav recovery efforts, FEMA used
     permanent full-time employees and DAEs to assist with LTCR needs.
     However, the availability of the permanent full-time staff was limited, and
     the DAE staff did not always have the technical skills to perform the
     LTCR functions. The limited management and technical ability of the



          Improvements Needed in FEMA’s Management of PA-TACs

                                  17
                DAE staff created an inability to oversee the PA-TAC contractors, manage
                relationships with communities, and implement outreach functions.14

                A recent GAO report found that the PA-TAC contractor’s LTCR
                coordination and planning efforts began before state and local
                governments had the capacity to work effectively with the LTCR
                resources. The report stated that in Texas and Iowa, state and local
                officials reported that LTCR efforts to begin intensive long-term recovery
                coordination and planning meetings started just a few weeks after the
                disasters, while the state and local governments had limited staff dealing
                with multiple recovery efforts, creating an additional burden and taxing
                their ability to meet contractor needs. The LTCR efforts ended before
                critical long-term recovery coordination and planning needs were fully
                addressed. As a result, state and local officials were left without federal
                coordination and planning assistance during a critical period in the
                recovery process.15

                Because FEMA had difficulty securing the LTCR expertise it needed from
                the PA-TAC contractors, in June 2009 it awarded a separate IDIQ contract
                to a new contractor to provide planning consultants and related
                professional services in support of FEMA’s LTCR and other disaster
                assistance and recovery operations.

                One month earlier, FEMA authorized the establishment of a dedicated
                DAE cadre of 120 long-term recovery specialists. According to FEMA,
                this dedicated DAE cadre should allow the LTCR program to overcome
                current deployment and organizational challenges and build a team of
                managerial and operational experts. The plan is to strengthen FEMA’s
                long-term recovery managerial and technical capability and provide
                overall success with supporting states in the recovery process. As of May
                2010, FEMA has 35 long-term recovery specialists for this new cadre.
                These personnel have economic development; long-term recovery
                leadership and management; and city, county, or state planning expertise.

                        Conclusion

                        FEMA, the states, and localities had limited access to LTCR
                        resources from the PA-TAC contractors even though this type of
                        technical assistance was required by the task orders. Because there
                        were no expectations established or evaluations of contractor
                        performance, it cannot be determined if the federal government

14
   FEMA Report: Hurricane Ike and Gustav Recovery RAMP (Remedial Action Management Program)
 

Report for FEMA Region VI, March 11, 2009. 
 

15
   GAO, Disaster Recovery: FEMA’s Long-Term Assistance Was Helpful to State and Local Governments 
 

but Had Some Limitations, GAO-10-404, March 2010. 
 


                      Improvements Needed in FEMA’s Management of PA-TACs

                                                18
       received a fair return for the nearly $15 million that FEMA spent
       on LTCR services.

Recommendation
       We recommend that the Assistant Administrator of FEMA’s
       Recovery Directorate:

       Recommendation #4: Develop performance expectations,
       evaluation criteria, and a monitoring plan to assess the success of:

           •	 The new Long-Term Community Recovery contractor, and
           •	 The new Disaster Assistance Employee cadre for Long
              Term Community Recovery.

Management Comments and Contractor Analysis

FEMA generally concurs this recommendation. FEMA disagreed with
elements of the analysis and conclusions and stated that the Public
Assistance Technical Assistance Contracts (PA-TACs) were not initially
established or structured to fully accomplish the Long Term Community
Recovery (LTCR) mission. Nonetheless, in order to meet an outstanding
need for long term recovery support, FEMA chose to provide support for
the LTCR through the PA-TACs. Recently, in order to better address this
need and accomplish the LTCR mission, FEMA entered into a stand-alone
Indefinite Delivery Indefinite Quantity contract for LTCR technical
assistance and support. FEMA also stated that it will adapt the
performance-based Technical Evaluation Worksheets and contractor
performance assessment cited for Recommendation #2 and apply it to the
use of the LTCR contract. Additionally, FEMA stated that it is developing
a FEMA Personnel Qualifications System to revise its disaster reserve
workforce and that the LTCR cadre will participate in this effort to define
qualifications and credentialing for reservists.

Contractor Analysis: We consider FEMA’s planned actions responsive to
our recommendation. Until DHS OIG receives and evaluates the
corrective action plan and target completion date, this recommendation is
considered unresolved and open. Where appropriate, changes were also
made in this section of the report to respond to technical comments
provided by FEMA.




     Improvements Needed in FEMA’s Management of PA-TACs

                             19
Task Order Contract File Compliance
     PA-TAC task order files were not in compliance with FAR requirements.
     FEMA has a history of not properly managing, tracking, and monitoring
     contracts. In the past several years, reports by the DHS OIG, GAO, and
     others have identified major weaknesses in FEMA’s contract
     management.

     Inadequate contract management provides little assurance that PA-TAC
     contractors were performing as required or that FEMA was obtaining the
     services contracted for under the PA-TAC contracts. Insufficient
     oversight of the contracts increased the potential for a loss of management
     control and created an environment that provided opportunities for fraud,
     waste, and abuse.

     FAR Section 4.801(b) states that the documentation in the contract files
     shall be sufficient to constitute a complete history of the transaction for:

        •	 Providing a complete background as a basis for informed decisions
           at each step in the acquisition process,
        •	 Supporting actions taken,
        •	 Providing information for reviews and investigations, and
        •	 Furnishing essential facts in the event of litigation or congressional
           inquiries.

     FEMA was not in compliance with FAR contracting policies and
     procedures for emergency acquisitions for many of the task order files we
     reviewed. For example, while FEMA has a contract file management
     system, it took months to locate a modification that added $12 million to
     one task order (and this modification was not included in our analysis).
     However, payment records from FEMA’s Federal Finance Center show
     that FEMA paid the contractor the fees for this modification. In addition,
     FEMA did not have documentation in the files on 10 “no cost”
     modifications that were made to the task orders in our review. The
     reasons for these modifications could not be determined from the
     documentation in the files.

     As reported previously, the task order files did not contain the required
     quality assurance surveillance plans to be used by the Task Monitors to
     evaluate the contractor’s performance for timeliness, quality, customer
     service, and cost. Nor did the task order files have status reports on
     monthly progress, or the contractor’s project management plans to
     demonstrate a comprehensive approach to the overall development,
     management, and coordination of the task orders.

     The Acting PA-TAC COTR, who was assigned in January 2010, said that
          Improvements Needed in FEMA’s Management of PA-TACs

                                   20
incomplete, lost, and missing task order contract files have been an
ongoing problem in the PA program. He said that most of the contract
files were “woefully incomplete.” To help remedy this problem, on
February 1, 2010, he sent a message to his staff stating that in the future, a
complete copy of each task order file must be made and filed in the PA
program office.

The Task Monitors told us they maintained very little documentation in
the field because it was their understanding that contract files were
maintained at FEMA headquarters.

Although FEMA has attempted to improve contract management, our
review of the PA-TAC task order files showed that there is still a need for
substantial improvement. Improvements in task order contract file
documentation and better management oversight are needed to preclude
creating an environment that provides opportunities for fraud, waste, and
abuse.

       Conclusion

       FEMA was not appropriately documenting contract files and not
       following federal acquisition contracting procedures and processes.
       As a result, the task order files were not readily accessible to users,
       not in compliance with the acquisition requirements, and did not
       have the information needed for reviews, investigations, or
       congressional inquiries.

Recommendation
       We recommend that the Federal Emergency Management
       Agency’s Chief Procurement Officer:

       Recommendation #5:

           •	 Include all active Public Assistance-Technical Assistance
              Contract task order contract files in the contract
              management system,
           •	 Reinforce employees’ duties to comply with Federal
              Acquisition Regulation requirements, and
           •	 Include the required quality assurance plans, project
              management plans, and status reports in the contract files to
              provide the government with the basis for evaluating
              contractor performance.




     Improvements Needed in FEMA’s Management of PA-TACs

                              21
Management Comments and Contractor Analysis
FEMA concurs with this recommendation. FEMA is developing Standard
Operating Procedures stating that all active contracts will be entered into
the contract management system, reinforcing employees’ duties to comply
with Federal Acquisition Regulation requirements and explaining contract
file preparation and documentation. FEMA stated that this
recommendation will be implemented no later than December 30, 2010.

Contractor Analysis: We consider FEMA’s planned actions responsive to
the recommendation. Until the corrective action plan and target
completion date are received and evaluated, the recommendation is
unresolved and open.




     Improvements Needed in FEMA’s Management of PA-TACs

                             22
Appendix A: 
 

Purpose, Scope, and Methodology
 




                           The objective of this audit was to determine the effectiveness of
                           FEMA’s management of its Public Assistance-Technical
                           Assistance Contracts (PA-TACs). FEMA is taking actions to
                           improve its acquisition function, including contracting, to prepare
                           for, respond to, and mitigate the results of disasters, as well as
                           improve its day-to-day operations. The DHS-OIG has a
                           requirement to determine if FEMA policies have been documented
                           and implemented. This performance audit evaluated FEMA’s
                           management of services provided by the PA-TAC contractors.

                           The specific objectives of the audit were to assess FEMA’s
                           processes and procedures for:

                                • Awarding individual task orders,
                                • Monitoring and evaluating contractor performance, and
                                • Certifying contractor billings.

                           FEMA is required to adhere to contract management policies and
                           procedures that are promulgated in the FAR.16 FEMA also is
                           required to adhere to the Homeland Security Acquisition
                           Regulation and the Homeland Security Acquisition Manual, Office
                           of Federal Procurement Policy guidance, the Stafford Act, and the
                           Brooks Act.17

                           This audit focused on FY 2008 PA-TAC task orders issued in
                           response to federal emergency and disaster declarations in Texas
                           and Louisiana because of hurricanes Gustav and Ike and the floods
                           in Iowa. Based on the information provided by FEMA prior to and
                           at the Entrance Conference conducted in November 2009, the team
                           found that nine task orders were issued for the declarations cited
                           above. For these nine task orders, there were 40 actions, 19 of
                           which had funding obligations. We reviewed 18 of the 19 funding
                           actions; FEMA could not locate the documentation for 1 funding
                           action for $12 million. Of the 40 actions, the remaining 21 actions
                           were “no cost” modifications. We reviewed 11 of the no cost

16
   The FAR, codified in Title 48 of the United States Code of Federal Regulations, was developed pursuant
to the Office of Federal Procurement Policy Act of 1974 (Public Law 93-400), as amended by Public Law
96-83.
17
   FEMA’s statutory authority comes from the Robert T. Stafford Disaster Relief and Emergency Assistance
Act, as amended. The Stafford Act was enacted in 1988 (Public Law 100-707), and it amended the Disaster
Relief Act of 1974 (Public Law 93-288). The Brooks Act (Public Law 92-582) was enacted on October 27,
1972. It amended the Federal Property and Administrative Services Act of 1949 to establish federal policy
concerning the selection of firms and individuals to perform architectural, engineering, and related services
for the federal government.

                         Improvements Needed in FEMA’s Management of PA-TACs

                                                     23
Appendix A: 
 

Purpose, Scope, and Methodology
 




                    modifications; documentation for 10 modifications was not in the
                    contract files and could not be reviewed.

                    FEMA awarded three IDIQ contracts in June 2006 to provide
                    technical assistance to grantees and subgrantees, architect-engineer
                    services, consultants, and other professional services, in support of
                    the PA program. We also reviewed these base contracts.

                    We obtained information from FEMA headquarters officials and
                    field officials in Regions VI and VII. We visited FEMA’s Federal
                    Finance Center in Mt. Weather, VA, to obtain payment
                    information on the contracts in our review. We also discussed PA-
                    TAC contract issues with officials in Texas and Iowa.

                    We conducted this performance audit according to generally
                    accepted government auditing standards (Government Auditing
                    Standards, July 2007 revision).

                    Our audit considered FEMA policies and procedures implemented
                    since the 2005 Gulf Coast hurricanes, as well as other applicable
                    federal acquisition requirements. At all locations visited, we
                    interviewed officials and obtained documentation to verify changes
                    or corrective actions taken. Field work was conducted from
                    November 2009 through June 2010.




                  Improvements Needed in FEMA’s Management of PA-TACs

                                          24
Appendix B
Management Comments on the Draft Report

                                                                       U.S. Ucpartmcm of 110",..1"",1 S.<urih'
                                                                      .sOOCSUc'e1.SIV                       -
                                                                      \\'",hmg,()/\.1)(·2~72




                                                             "'~"
                                                           ;fJ; FEMA
                            SEP 1 7 1010




    MEMORANDUM FOR:              Malt Judaeki
                                 AssistUllt Inspector General
                                 Offiec of Emcrgeney Management Oversight
                                 Office of Inspector General

    FROM:                        David J. K8ufimm
                                 Director
                                                      (Ji--
                                 Office of Policy and Program Analysis

    SUBJECT,                     Comments on OIG own Report, ImprovemenlS Needed i/1
                                 Managing FEMA's Public Assis/ance·Teclll1ical Assistance
                                 COlllracls

    Thank you for the opportunity to review and comment on the Office of Inspector
    General's (OIG's) subject draft audit report. As the Federal Emergency Management
    Agency (FEMA) works toward refining its programs, the OIG's indcpcndcnt analysis of
    program pcrfonmmce greatly bencfits our ability to continuously improvc our activities.
    Technical comments have been provided under separate cover.

    With respect to the Long-Tenn Community Recovery Resources section of the report, we
    wish to point out that the Public Assistancc Tcchnieal Assistance ContTllcts (PA-TACs)
    were not initially established or structured to fully accomplish the Long Term
    Community Recovery (LTCR) mission. Nonetheless, in order to meet un outstanding
    nlX'd for long tenn recovery support, FEMA chose to provide support lor LTCR through
    the PA-TACs. Recently, in order to better address this need and accomplish the: LTCR
    mission, FEMA has entered into a stand-alone Indefinite Dclivcl)' Indefinite Quantity
    (IDIQ) contract for LTCR technical assistance and support.

    FEMA concurs or partially concurs with the draft report's five recommendations. While
    we will be providing corrective action plans in our 90-day response, we provide the
    following information relative to the five recommendations:




                     Improvements Needed in FEMA’s Management of PA-TACs

                                                 25
Appendix B
Management Comments on the Draft Report

Recommendation #1:
   • Follow through on its request for an opinion to the Office of Legal Counsel, or the
     Federal Programs Branch, Civil Division, at the Department of Justice regarding
     how the Brooks Act applies to the awarding of individual Public Assistance-
     Technical Assistance Contract task orders and
   • If the Department of Justice finds that the current method of awarding Public
     Assistance-Technical Assistance Contracts does not adhere to the Brooks Act,
     work with applicable agency officials to ensure that future task order awards
     follow the legally required process.

Response: FEMA partially concurs with this recommendation in that we are
coordinating with the Department of Homeland Security's Office of General Counsel
which intends to review the issue and will transmit a request for an opinion to the
Department of Justice, if necessary.

Recommendation #2:
   • Establish perfonnance expectations and develop perfonnance and evaluation
     criteria for the Public Assistance-Technical Assistance Contracts,
   • Ensure that Public Assistance-Technical Assistance Contracts contractor
     perfonnance is being evaluated using the criteria established, and
   • Ensure that there are consequences for failure to achieve perfonnance
     expectations.

Response: FEMA concurs with this recommendation and is in the process of developing
a Technical Evaluation Worksheet to evaluate contractor perfonnance. For clarification,
the PA-TAC contracts issued under the contract numbers HSFEHQ-06-D-0487, 0488 and
0489 were awarded as standard statement of work contracts, as opposed to perfonnance
based contracts. However, in order to better be able to assess contractor perfonnance,
FEMA is developing a Technical Evaluation Worksheet. The FEMA Public Assistance
Division distributed a draft Technical Evaluation Worksheet to FEMA Regional
Recovery Divisions for review and comment in August 2010. Once reviewed and
approved, the Contracting Officer's Technical Representative (COTR) and the
Contracting Officer (CO) plan to utilize the Technical Evaluation Worksheet as the
primary tool to capture perfonnance. The Technical Evaluation Worksheet will also be
used by the Task Monitors in the Regions to evaluate contractor perfonnance on each
task order. FEMA will use the results of the evaluation from the Task Monitors, along
with the COTR and CO assessments, to develop the contractors' annual past perfonnance
evaluation.

Recommendation #3:
   • Develop policies, procedures, and processes that define and direct the Public
     Assistance Task Monitor role and responsibilities for monitoring and evaluating
     contractor perfonnance and for certifying and reconciling contractor invoices and
     supporting documentation.



                    Improvements Needed in FEMA’s Management of PA-TACs

                                            26
Appendix B
Management Comments on the Draft Report

     • Develop a fonnal training program to instruct the Public Assistance Task
       Monitors on their roles and responsibilities.
     • Develop a certification program for Public Assistance Task Monitors.

Response: FEMA concurs with the recommendation and will develop policies,
procedures, and processes that define and direct Ta'sk Monitors. A fonnal training
program for the Task Monitors will also be developed as well as a certification program
for Task Monitors. Recommendation #3 will be implemented no later than September
30,2011.

Recommendation #4: Develop perfonnance expectations, evaluation criteria, and a
monitoring plan to assess the success of:
   • The new Long-Term Community Recovery contractor, and
   • The new Disaster Assistance Employee cadre for Long Term Community
      Recovery.

Response: FEMA accepts this general recommendation but disagrees with important
elements of the analysis and the conclusions drawn, as noted above. The Business
Management Division, which oversees the use of the new LTCR IDIQ contract will be
working with the Public Assistance Division to adapt the model of Technical Evaluation
Worksheets and contractor perfonnance assessment to be applied to the use of the LTCR
IDIQ contract. Additionally, FEMA is undertaking an overall revision to its disaster
reserve workforce though development of the FEMA Persormel Qualifications System.
The LTCR cadre will be participating in this effort to define qualifications and
credentialing for DAEs.

Recommendation #5:
   • Include aU active Public Assistance-Technical Assistance Contract task order
     contract files in the contract management system,
   • Reinforce employees' duties to comply with Federal Acquisition Regulation
      requirements, and
   • Include the required quality assurance plans, project management plans, and
     status reports in the contract files to provide the govenunent with the basis for
     evaluating contractor perfonnance.

Response: FEMA concurs with this recommendation and is developing Standard
Operating Procedures (SOP) stating that all active contracts will be entered into the
contract management system, reinforcing employees' duties to comply with Federal
Acquisition Regulation requirements and explaining contract file preparation and
documentation. Additionally, the SOP will require each CO to ensure that the required
procurement documents are included in the contract file and a detailed memorandum
signed by the CO is in the file if the documents are not available. Recommendation #5
will be implemented no later than December 3D, 2010.
Thank you again for the opportunity to comment on this draft' report and we look forward
to working with you on other issues as we both strive to improve FEMA.

                    Improvements Needed in FEMA’s Management of PA-TACs

                                            27
Appendix C: List of Related Audit Reports and Testimonies on FEMA
PA-TACS and Contracting

DHS OIG: Assessment of FEMA’s Public Assistance Program Policies and Procedures,
OIG-10-26, December 2009

DHS OIG: FEMA’s Sourcing for Disaster Response Goods and Services, OIG-09-96,
August 2009

DHS OIG: Management Advisory Report: FEMA’s Response to Hurricane Ike, OIG-09-
78, June 2009

DHS OIG: Challenges Facing FEMA’s Disaster Contract Management, OIG-09-70,
May 2009

DHS OIG: FEMA’s Implementation of Best Practices in the Acquisition Process, OIG-
09-31, February 2009

DHS OIG: Internal Controls in the FEMA Disaster Acquisition Process, OIG-09-32,
February 2009

DHS OIG: Challenges Facing FEMA’s Acquisition Workforce, OIG-09-11, November
2008

DHS OIG: FEMA’s Sheltering and Transitional Housing Activities After Hurricane
Katrina, OIG-08-93, September 2008

DHS OIG: Acquisition Workforce Training and Qualifications, OIG-08-56, May 2008

GAO: Hurricanes Gustav and Ike Disaster Assistance: FEMA Strengthened Its Fraud
Prevention Controls, but Customer Service Needs Improvement, GAO-09-671, June 2009

GAO: Department of Homeland Security: Progress and Continuing Concerns with
Acquisition Management, GAO-08-1164T, September 2008

GAO: Department of Homeland Security: Better Planning and Oversight Needed to
Improve Complex Service Acquisition Outcomes, GAO-08-765T, May 2008

GAO: Department of Homeland Security: Better Planning and Assessment Needed to
Improve Outcomes for Complex Service Acquisitions, GAO-08-263, April 2008

GAO: Department of Homeland Security: Status and Accountability Challenges
Associated with the Use of Special DHS Acquisition Authority, GAO-08-471T, February
2008

GAO: National Disaster Response: FEMA Should Take Action to Improve Capacity and
Coordination between Government and Voluntary Sectors, GAO-08-369, February 2008



                   Improvements Needed in FEMA’s Management of PA-TACs 
 


                                          Page 28
 

Appendix C: List of Related Audit Reports and Testimonies on FEMA
PA-TACS and Contracting

GAO: Department of Homeland Security: Improved Assessment and Oversight Needed
to Manage Risk of Contracting for Selected Services, GAO-07-990, September 2007

GAO: Hurricane Katrina: Planning for and Management of Federal Disaster Recovery
Contracts, GAO-06-622T, April 2006

GAO: Agency Management of Contractors Responding to Hurricanes Katrina and Rita,
GAO-06-461R, March 2006

Testimony of Craig Fugate, FEMA Administrator, before the House Committee on
Transportation and Infrastructure, Subcommittee of Economic Development, Public
Buildings and Emergency Management, Post-Katrina: What It Takes to Cut the
Bureaucracy and Assure a More Rapid Response after a Catastrophic Disaster, July 27,
2009




                   Improvements Needed in FEMA’s Management of PA-TACs 
 


                                          Page 29
 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Policy
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Administrator
                      FEMA-GAO-OIG-Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                          Improvements Needed in FEMA’s Management of PA-TACs 
 


                                                 Page 30
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
